                                          NATIONAL SCIENCE FOUNDATION
                                           OFFICE OF INSPECTOR GENERAL
                                             OFFICE OF INVESTIGATIONS

                                   CLOSEOUT MEMORANDUM

TO: AlGI          File Number: 196090053                                         Date: 28 March 2002

Subject: Closeout Memo                                                                     Page I of I



       There was no closeout written at the time this case was closed. The following information was
       extracted from the file in conformance with standard closeout documents.

      Our office was informed that the subject! was alleged to have failed to comply with limits on outside
      income and financial COL An audit found that the subject was paid $2000 to present a speech at a
                                                      2
      conference that was partially funded by a grant. Further investigation identified several payments
      to the subject for speaking engagements, which were possible 18 USC 209 violations. The case was
      resolved by civil settlement. The subject paid $24,900 and received a letter ofreprimand from NSF.

       Accordingly this case is closed .




      .I
      2    NSF EHR grant



                    Prepared by:                   Cleared by:

                  Agent:           Attorney:     Supervisor:     AlGI

   Name:



 Signature &
    date:

      OIG-02-2
